McGuireWoods LLP
Gateway Plaza
800 East Canal Street
Richmond, Virginia 23219
Phone: 804.775.1000
Fax: 804.775.1061
www.mcguirewoods.com
Brian D. Schmalzbach
Direct: 804.775.4746

bschmalzbach@mcguirewoods.com
Fax: 804.698.2304

BY MAIL AND ELECTRONIC FILING
April 13, 2020
Mr. Scott Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Weatherly, et al. v. Pershing, L.L.C., No. 19-1157

Dear Mr. Harris:
I represent the respondent in this case. Under Supreme Court Rule 30.4, I hereby request
a 30-day extension of time in which to file a response to the petition for certiorari. The petition
was docketed on March 18 and this Court requested a response, which is currently due on May
8. If extended, the response would be due on Monday, June 8.
I am requesting this extension due to the press of other business and the disruption caused
by the outbreak of COVID-19.
Thank you for your consideration of this request.
Sincerely,
Brian D. Schmalzbach
Cc: Erwin Chemerinsky, Counsel for Petitioner (by electronic and first-class mail)

Atlanta | Austin | Baltimore | Charlotte | Charlottesville | Chicago | Dallas | Houston | Jacksonville | London | Los Angeles - Century City
Los Angeles - Downtown | New York | Norfolk | Pittsburgh | Raleigh | Richmond | San Francisco | Tysons | Washington, D.C. | Wilmington, NC

